Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




            MEDICAID
         Proactive Safeguards




                   JUNE GIBBS BROWN
                    Inspector General

                        JULY 2000
                      OEI-05-99-00070
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago Regional Office prepared this report under the direction of William C. Moran,
Regional Inspector General and Natalie A. Coen, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

John M. Traczyk, Project Leader                         Jennifer Antico, Program Specialist




        To obtain copies of this report, please call the Chicago Regional Office at 312-353-4124.
          Reports are also available on the World Wide Web at our home page address:

                                     http://www.hhs.gov/oig/oei/
                          EXECUTIVE                        SUMMARY

PURPOSE

          This is the first of three reports describing Medicaid program safeguards. This report
          discusses proactive safeguards. The second report discusses claim processing safeguards
          and the third report discusses post payment safeguards.

          This report is intended to provide information about and increase awareness of Medicaid
          proactive safeguards. Proactive safeguards anticipate problems and attempt to thwart, or
          ward off, wrong doers. They occur before a patient receives services and before a claim
          for services is generated for payment.

PROACTIVE SAFEGUARDS

          Provider/Vendor Enrollment (including revised enrollment forms, onsite visits,

          background checks and fingerprinting, surety bonds and improved verification procedures)

          makes it more difficult for unqualified and unscrupulous providers to gain access to

          Medicaid systems.

          Periodic Provider Re-enrollment helps screen out inactive providers and providers not

          engaged in legitimate businesses. 

          Provider Number Termination reduces the likelihood that they will be misused by

          unscrupulous persons to defraud Medicaid. 

          Provider, Patient and Employee Education should be the first line of defense against

          Medicaid fraud and abuse. 

          Prior Authorization is used by States to control problematic providers and abused

          medical services.

          Certificates of Medical Necessity are frequently used by States to obtain information

          about the medical need for specific services, supplies and equipment.

          Prime Vendor Contracts reduce the price of products and services by permitting a

          private business entity to function as the primary source for specific services or products. 


OPPORTUNITIES FOR IMPROVEMENT

          Based on our prior studies and information gathered during this study, we encourage
          States to consider the following opportunities for improving program safeguards:

          <	
          <            Target high risk providers for extensive application review and verification.
                       Extensive reviews of all enrollment applications may not be cost effective;
                       however, it appears that extensive reviews of specific providers and improved
                       information verification techniques deter unscrupulous persons from obtaining a
                       provider number.

Proactive Safeguards                                   1                                   OEI-05-99-00070
          <	
          <            Expand the use of local field offices to conduct onsite visits to verify the
                       legitimacy of problematic providers. Onsite visits appear helpful in establishing
                       the legitimacy of high risk provider number applicants. Some States have
                       increased the number of onsite visits and controlled the costs associated with
                       onsite visits by using their local field offices.

          <	           Conduct more frequent and better education of providers concerning their
                       obligation to protect their provider number(s) from unauthorized use and the
                       need to notify Medicaid when their employment relationships with clinics
                       and other providers terminates. Evidence suggest that many physicians do not
                       adequately protect their provider numbers. Unscrupulous persons circumvent
                       provider enrollment safeguards by stealing a legitimate provider’s billing number or
                       purchasing the billing number of a legitimate provider. Some physicians are totally
                       unaware that billing number information they have shared with former and
                       potential employers has been used to defraud Medicaid.

          <
          <	           Strengthen Federal and State laws to hold physicians and other Medicaid
                       providers financially and criminally liable for participating in any deception
                       that allows others to use their credentials and business to defraud or cause
                       financial harm to a State Medicaid program. We believe that government
                       programs need to address the vulnerability in their system safeguards stemming
                       from physicians who permit others to use their identity to circumvent program
                       safeguards or who permit the use of their professional licenses and places of
                       business as a front to deceive Medicaid.

          <	           Identify and register all clearinghouses and third-party billers and improve
                       safeguards to ensure that electronic claims are accepted only from authorized
                       sites and terminals. Today’s Medicaid systems do not ensure that claims
                       originating from billing agencies have been properly authorized by the physician
                       under whose name claims are submitted. Most Medicaid programs cannot identify
                       billing companies that submit claims nor can they determine which physicians use
                       which billing companies.

          <
          <	           Centralize responsibility for, and improve, employee fraud and abuse
                       awareness training. With some exceptions, it appears that fraud and abuse
                       awareness training may be too fragmented to be effective.

          We intend to do additional in depth studies on proactive safeguards used by States.


AGENCY COMMENTS

The HCFA believes that the opportunities for improvement described in this report provide
valuable information that will be shared with the State Medicaid programs.


Proactive Safeguards                                    2                                     OEI-05-99-00070
                       TABLE                      OF             CONTENTS



                                                                                                                  PAGE
EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


PROACTIVE SAFEGUARDS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Provider/Vendor Enrollment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                Application Forms
                Onsite Visits
                Background Checks & Fingerprinting
                Surety Bonds

          Third Party Verification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Periodic Provider Re-enrollment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Provider Number Termination . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Provider, Patient & Employee Education . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Prior Authorization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Second Opinion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          Certificates of Medical Necessity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          Prime Vendor Contracts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15



OPPORTUNITIES FOR IMPROVEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19





Proactive Safeguards                                        3                                              OEI-05-99-00070
                              INTRODUCTION


PURPOSE

          To provide information about and increase awareness of Medicaid Proactive safeguards.


BACKGROUND

          Medicaid is a health insurance program for certain low income and needy people. Within
          Federal limits, each State decides eligibility, benefit coverage, administrative practices,
          reimbursement and operational resource requirements. About 70 cents of every Medicaid
          dollar goes to institutional providers (hospitals, nursing homes). Thirty cents pays for
          non-institutional services (physician services, laboratory and radiology). Federal law
          requires States to pay for services provided by certain institutional providers and non-
          institutional providers. States may elect to offer additional services such as dental care,
          podiatric care and prescription drugs just to name a few.

          The Health Care Financing Administration (HCFA) is responsible for administering
          Federal matching funds to the States and for legislation and regulations affecting Title
          XIX (commonly referred to as the Medicaid program). The HCFA also provides
          guidelines, technical assistance and periodic assessments of State programs. More than 36
          million recipients are enrolled in Medicaid. In 1991, 90 percent of these recipients were
          enrolled in fee-for-service (FFS) programs. By 1998, the number of recipients in FFS had
          decreased to 46 percent and enrollment in managed care plans increased to nearly 54
          percent. Nearly $169 billion was spent by the Federal Government and the States on
          Medicaid benefits in Fiscal Year 1998.

          States are required by legislation to make every effort to eliminate waste and illegitimate
          program expenditures. States are also required to develop payment safeguards designed
          to protect their Medicaid funds from unscrupulous and fraudulent providers. Most States
          also have a Medicaid Fraud Control Unit to investigate allegations of fraud and abuse.




Proactive Safeguards                               4                                     OEI-05-99-00070
METHODOLOGY

          We visited or interviewed over the telephone agency(ies) responsible for administering the
          Medicaid program in the following eight States:

                       California       Florida                Illinois
                       Louisiana        Maryland               Oregon
                       Pennsylvania     Texas

          These States were selected for site visits because they account for nearly half of all
          Medicaid expenditures. They were also chosen for their geographic location. Our site
          visits were conducted during the spring of 1999. During our visits, we discussed program
          safeguards used by the State’s Medicaid program. We spoke to State Agency officials
          and, when appropriate, to State subcontractors.

          We did not discuss payment safeguards used by managed care organizations and State
          pharmacy programs. Our discussions focused on Medicaid fee-for-service program
          safeguards. We have not attempted to assess the effectiveness of each safeguard.

          The primary purpose of this report was to compile a catalog of program safeguards used
          by eight State Medicaid programs. Every effort was made to prepare a comprehensive
          and complete list. Undoubtably, there will be some disagreement as to what constitutes a
          program safeguard. Moreover, States, their subcontractors and others may have
          information about other safeguard measures not mentioned in this report.

          This is the first of three reports on Medicaid safeguards. This report discusses proactive
          safeguards. Proactive safeguards are those measures taken to prevent fraud, abuse and
          waste before a claim is ever submitted for payment. The second report discusses claim
          processing safeguards and the final report discusses post payment safeguards.




Proactive Safeguards                               5                                     OEI-05-99-00070
                 PROACTIVE                           SAFEGUARDS

          Proactive safeguards are those preventive measures used by States to reduce their
          Medicaid program’s exposure to fraud and abuse. These measures anticipate problems
          and attempt to thwart, or ward off, wrong doers. They occur before a patient receives
          services and before a claim for services is generated for payment. This report describes
          the proactive safeguards we identified in the eight States we visited.

Provider/Vendor Enrollment

          Provider enrollment is the first line of defense in the fight against fraud and abuse.
          Keeping unqualified and unscrupulous providers from gaining access to Medicaid systems
          not only protects patients but also lowers administrative costs and protects program
          assets.

          Medicaid State Agencies, or their subcontractors, assign provider numbers to qualified
          physicians and other suppliers who furnish services and supplies to Medicaid patients.
          These numbers are required for claims processing, for accounting purposes and for
          administrative functions. To obtain a provider number, every physician, hospital and
          medical supplier must complete an enrollment application.

Application Forms

          Florida, Oregon and Texas said that they had developed new enrollment application forms.
          These new applications are designed to solicit additional information to aid the States in
          determining whether an applicant for a provider number is qualified to provide services to
          patients and a legitimate business entity.

          The applications used by States vary in length and complexity. All solicit information
          about applicants, their tax payer identification (Employer Identification Number or Social
          Security Number), the nature of their business, the location of their business and licensing
          information. Additional information is often requested from providers that States believe
          pose the greatest risk to their Medicaid program. Most of the States require copies of
          business and professional licenses and taxpayer identification . Some ask for proof of
          insurance, copies of drivers licenses, proof of vehicle registration, proof of training or
          professional association certification.

          Most provider enrollment applications are subjected to desk reviews. All of our States
          verify business and professional licenses of applicants by contacting the license issuing
          agency. States also look for applicants who may have been excluded from participating in
          Medicare or any State Medicaid program. In Illinois, Florida, Oregon and Texas,
          applications that appear to contain discrepancies or false information are referred to
          program integrity or the Medicaid Fraud Control Unit for investigation.

Proactive Safeguards                                6                                     OEI-05-99-00070
Onsite Visits

          Florida and Louisiana routinely conduct onsite visits to determine whether applicants for
          provider numbers are, in fact, operating a legitimate business. California and Illinois limit
          onsite visits to new providers who they believe pose the greatest risk to their Medicaid
          program. These States do not visit hospitals, nursing homes and other facilities that must
          pass routine Federal or State onsite inspections. They focus their efforts on durable
          medical equipment companies, diagnostic service providers and other high risk provider
          groups.

          Information received from the States of Florida and Texas demonstrate the sentinel effect
          of onsite visits. In 1 month, Florida received about 85 new provider applications from
          Dade county. Onsite visits revealed that none of these applications were legitimate, and
          all were denied. In Texas, the Medicaid State Agency made visits to the business
          location(s) of new providers during a time period specified by legislation. The number of
          new provider applicants during the study period declined by more than 50 percent. After
          the study period ended, the number of applications returned to pre-study levels. Onsite
          visits, to providers who applied during the study period, revealed that all were legitimate
          businesses. The Texas State Agency believes that bogus businesses knew they would be
          visited and delayed seeking a provider number until the test period ended.

          Some States use local welfare field offices to conduct onsite visits. Florida and Louisiana
          use local field offices and out stationed Medicaid staff to ensure that every new provider is
          visited before a provider number is issued. The Medicaid State Agency provides guidance
          on how to conduct each onsite visit but the actual visits are conducted by existing field
          office staff.

          California, Illinois, Maryland, Oregon and Texas do not conduct routine visits to new
          providers. They claim that such visits are not cost effective and that they have insufficient
          staff to undertake this endeavor. Moreover, lawsuits in California have put pressure on
          that State to stop delaying and expedite the issuance of Medicaid provider numbers.

Background Checks And Fingerprinting

          The Florida Medicaid program conducts background investigations and fingerprints nearly
          all applicants requesting a new provider number. Florida also conducts background
          investigations and fingerprints providers re-enrolling in their Medicaid program. Florida
          uses fingerprints to verify the identity of applicants desiring to obtain a Medicaid provider
          number. Of the 60,000 providers in the Florida Medicaid program, 52,000 have
          undergone a background investigation and been fingerprinted. Of 52,000 background
          checks completed, nearly 1,600 providers were found to have a criminal record.




Proactive Safeguards                                7                                      OEI-05-99-00070
          Florida law allows the State Agency to deny enrollment in their Medicaid program to any
          provider1:

                       <    convicted of character-related felonies;
                       <    found to have made false representations or omitted any material fact;
                       <    excluded, suspended, terminated or involuntary withdrew from any State
                            Medicaid program or the Medicare program;
                       <    convicted of obstructing or interfering in the conduct of a criminal
                            investigation;
                       <	   found by licensing, certifying or professional standards board or agency to
                            have violated the standards or conditions relating to licensure, certification
                            or quality of care;
                       <    Failing to pay fines or overpayments assessed by the Medicaid program.

          Florida works with the State’s Department of Law Enforcement to conduct background
          checks and fingerprint re-enrolling and newly enrolling providers. All persons with 5 or
          more percent ownership in a business applying for a Medicaid provider number are
          required to be fingerprinted. In high risk counties (Dade and Broward), all re-enrolling
          and newly enrolling providers must be fingerprinted. Non-physician applicants must
          identify their referring physicians. These referring physicians must have a completed
          background investigation, have been fingerprinted and be currently enrolled in the Florida
          Medicaid program. The cost of screening applicants and re-enrolling providers is $15 per
          person. This cost is paid by the applicant. The California Medi-Cal program is also
          considering conducting background checks and fingerprinting new and re-enrolling
          Medicaid providers.

Surety Bonds

          States are using surety bonds to address vulnerabilities in their Medicaid program. Surety
          bonds provide a financial incentive designed to discourage unscrupulous providers from
          enrolling in a State’s Medicaid program. They help to ensure that providers have the
          capacity to provide services and they provide financial protection against provider fraud.

          Florida and Louisiana can require high risk providers to post a surety bond. In Florida, a
          $50,000 surety bond is required of all new durable medical equipment providers, private
          transportation companies, non-physician owned clinics, independent laboratories and
          home health agencies. A surety bond is also required of all providers doing business in
          Dade and Broward counties, and of all new providers in the remainder of the State.

          In Louisiana providers whose behavior is unacceptable can be required to re-enroll and to
          post a bond. Louisiana “sanction bonds” and Florida’s surety bonds are intended to
          protect their Medicaid programs from potential financial losses. Bonding also adds


          1
                  Or any officer, agent, managing employee, affiliated person, partner or shareholder having
          ownership interest of 5 percent or more.

Proactive Safeguards                                     8                                          OEI-05-99-00070
          another level of provider scrutiny. Most bonding companies conduct their own
          investigations to verify applicant information before agreeing to bond an individual or
          company.


Third Party Verification

          All of the States we visited verify professional licenses of applicants with the appropriate
          State licencing board(s). Some States verify business licenses by contacting State, county
          and city business licensing departments. Some (CA & TX) verify vehicle registration or
          applicant drivers licenses. California solicits the names of manufacturers and suppliers
          having a business relationship with an applicant for a Medicaid provider number. The
          provider’s manufacturers and suppliers are then contacted to verify application
          information. The Florida State Agency compares information provided to the bonding
          company with information supplied to them during provider enrollment.


Periodic Provider Re-enrollment

          Florida, Illinois, Louisiana and Texas have taken steps to re-enroll some or all of their
          Medicaid providers. However, the actual process for doing so is fragmented among the
          various State Agencies. In some States, the department responsible for mental health
          workers and facilities would handle worker and facility enrollment or re-enrollment.
          Pharmacies would be handled by another State Agency and so forth.

          Some States believe that provider re-enrollment is resource intensive, too costly and of
          questionable cost benefit. The last time Oregon re-enrolled providers was in 1982.
          California and Pennsylvania have never re-enrolled any of their providers. States like the
          idea of periodic re-enrollment but claim they lack staff, resources and legislative support
          for such an undertaking.

          Florida has re-enrolled all if its Medicaid providers. When Florida Medicaid asked all of
          its Medicaid providers to update their provider applications, numerous letters were
          returned as undeliverable. Florida’s re-enrollment project reduced the number of durable
          medical equipment providers from 4,385 to 1,500. The number of home health and
          transportation providers fell by nearly half after re-enrollment. Overall, Florida has
          reduced the number of Medicaid provider numbers from nearly 83,000 in 1995, to
          approximately 60,000 in 1999. Florida plans to re-enroll one-third of its providers every 3
          years.

          Illinois has begun re-enrolling the providers in their Medicaid program. Unlike Florida,
          which asked all providers to re-enroll, Illinois has decided to re-enroll providers by
          speciality. The first specialist to be re-enrolled in the Illinois Medicaid program were
          dentists. Prior to re-enrollment there were more than 3,000 provider numbers assigned to
          dentists. After re-enrollment, the number of providers fell to about 700.

Proactive Safeguards                                9                                     OEI-05-99-00070
          Louisiana re-enrolled all non-emergency medical transportation (NEMT) providers when
          they redesigned their program. They have also re-enrolled chiropractors, mental health
          providers, rehabilitation providers and case management providers. Like Illinois,
          Louisiana experienced a significant drop in the number of providers.

          Efforts in Texas to re-enroll Medicaid providers are currently underway. All Texas
          providers were required to re-enroll by September 1, 1999 or lose their eligibility to bill
          that State’s Medicaid program. The Texas effort is aimed at ensuring that all the
          providers in their system are legitimate businesses.


Provider Number Termination

          Experts and law enforcement officials believe that poor controls over provider numbers
          that have been issued may be a vulnerability in Medicaid program safeguards. Information
          by States indicates that there are people who defrauded Medicaid using inactive provider
          numbers. States also told us about people who obtained multiple provider numbers and
          then used them to avoid Medicaid payment safeguards and to defraud Medicaid. One
          State mention how clinics and other providers have used the provider numbers of retired
          or former employees to defraud Medicaid.

          Florida has uncovered clinics that obtained improper Medicaid payments using the un­
          terminated provider numbers of physicians who were no longer affiliated with the clinic or
          who had retired from active practice. Florida sent letters to physicians asking them to
          verify the clinics at which they had worked and their dates of employment. The physician
          responses showed that some clinics continued to use a physician’s provider number(s)
          after the physician had left the clinic. Overall, more than 100 clinics and physicians were
          terminated from the Florida Medicaid program for irregular billing practices.


          Florida, Louisiana and Texas have found physicians who sold their provider numbers to
          persons who then used them to defraud Medicaid. All of these States plan to take action
          against physicians who participated in schemes to defraud Medicaid. Florida has referred
          nearly 150 physicians to the State Medicaid Fraud Control Unit for investigation and
          possible referral to the Justice Department for criminal, civil and administrative
          prosecution. The State of Florida contends that these physicians established bogus
          relationships with clinics and other health care businesses that enabled others to defraud
          the State Medicaid program.

          All of the States we visited have provider number termination policies. However, some
          States appear reluctant to remove unused provider numbers from their system. In some
          States, removing a provider number is a lengthy process. All of the States we visited
          claim they can identify providers with no claims activity over a specified period of time.
          All move their inactive provider numbers to a suspense file for a specified period of time.


Proactive Safeguards                                10                                     OEI-05-99-00070
          If the provider submits a single claim after their number is moved to the suspense file, the
          number will be re-activated without the need for a new provider enrollment application.
          In most cases, the actual removal of a provider number from Medicaid systems occurs
          after 3 years of no claim activity; however, in some States the actual removal of a provider
          number can take 5 years or more. Providers whose numbers have been terminated must
          complete a new provider application and get a new number.


Provider, Patient and Employee Education

          Health care experts believe that teaching providers, patients and Medicaid employees
          about fraud and abuse can have a sentinel effect on provider behavior. Provider, patient
          and employee education increases awareness as to what is not acceptable billing. It also
          increases the likelihood that potentially fraudulent and abusive practices will be reported
          for in-depth investigation.

Provider Education

          The eight States we visited furnish provider handbooks to all of their Medicaid providers.
          Handbooks help providers understand the laws, regulations and policies that govern their
          claims and claim payment. They provide information about what is, or is not, covered and
          how to bill correctly. Providers are notified of policy changes by letter, on remittance
          advices, in bulletins and at sites on the Internet.

          States also conduct training at medical conferences, health fairs and other professional
          settings. Medicaid staff often make presentations on topics of interest to providers and
          respond to provider questions about coverage, payment and other programmatic issues.

          States also make visits to provider offices to help them correct problems with their billing
          or to explain coverage and payment policies. Onsite visits are also used to warn providers
          about unacceptable billing practices found during claims processing or post payment
          reviews. This study did not determine the quality and quantity of Medicaid provider
          education efforts. Little is known as to how much emphasis Medicaid places on provider
          awareness of fraud and abuse and the consequences of engaging in such activity.

Patient Education

          State efforts to increase Medicaid patient awareness of fraud and abuse vary from State to
          State. One State, that we visited, felt that patients were not a good source for identifying
          potentially fraudulent and abusive providers. Other States felt they had achieved some
          degree of success in combating fraud and abuse with their patient education programs.
          Despite mixed feelings as to the effectiveness of their patient education programs, all eight
          States in our sample routinely participate in health fairs and other venues that target
          patients.


Proactive Safeguards                               11                                     OEI-05-99-00070
Employee Education

          Six of the eight States told us that they had conducted training to help their employees
          spot and report possible fraud and abuse. One of these States told us that they had
          conducted training of employees in the claims processing division. They assume that other
          Medicaid operational and policy divisions (i.e., Mental Health Department, Pharmacy
          Program) have also conducted training to increase employee awareness of potential fraud
          and abuse situations. In Florida, Louisiana and Texas the State Medicaid Agency has
          centralized responsibility for all fraud and abuse training given to all employees involved
          in administering their Medicaid program. The Florida State Agency has also developed an
          employee handbook to help their employees spot potential fraud and abuse. In these
          States, employee training about fraud an abuse is centralized.

          One State felt that an organized educational effort was not needed because their
          employees knew how to spot fraud and abuse and that they would refer any questionable
          conduct to their supervisor. Eventually, the problem would find its way to the State’s
          program integrity unit.


Prior Authorization

          All of the States we visited have identified medical services that require prior
          authorization. All of the States we visited use prior authorization to control problematic
          providers and abused medical services. Prior authorization protect patients from
          unnecessary services and procedures. The States believe that prior authorization has a
          deterrent effective.

          Most States that we visited, require providers to obtain prior authorization for acute
          hospital admissions and psychiatric hospital admissions. Responsibility for authorizing
          most services is centralized in the
          State Medicaid Agency or their
          contractor(s). In Louisiana, Louisiana      Services Requiring Prior Authorization
          State University, School of Dentistry
                                                      Acute and Psychiatric Hospital Admissions
          is responsible for the prior                Ambulatory Surgical Center Services
          authorization of dental services for        Dental services
          that States’s Medicaid program. In          Home Health Services
          Illinois, the State Medicaid program        Hospital Outpatient Services
          contracts with a private dental insurer     Incontinent Supplies
                                                      Mental Health Services
          for prior authorization services. An        Non-Emergency Medical Transportation
          outside agency handles hospital             Rehabilitation & Therapy Services
          admissions, transportation, home            Same Day Services
          health and some ancillary services in       Transplants
          Oregon.



Proactive Safeguards                               12                                    OEI-05-99-00070
          Some Medicaid services are authorized by local field office personnel, who use State
          guidelines when deciding whether or not to approve medical services. Local office
          medical workers have responsibility for authorizing most non-emergency medical
          transportation services provided to aged and disabled persons and to persons receiving
          general assistance. Some local field offices also authorize some other medical services
          such as personal care attendants.

          Seven States in our sample have increased their use of prior authorization. California uses
          prior authorization to control utilization of incontinent supplies and other abused services
          and supplies. California has not measured the effect of its prior authorization program but
          estimates that without the sentinel effect of prior authorization their payments for services
          would be about 20 percent greater than current expenditure levels.

          Louisiana claims that prior authorization of mental hospital and acute hospital admissions
          has saved that State more than $100 million. The State reviews diagnostic information,
          anticipated services and clinical indicators of severity of illness when deciding whether to
          approve or deny a hospital admission. This same information is used to determine the
          number of inpatient days the State Medicaid program will authorize and pay. Before prior
          authorization, Louisiana’s spending on inpatient mental health services had risen from $5
          million to $36 million annually. After the State re-engineered their policies and coverage
          guidelines and added prior authorization requirements, payments fell. Today, Louisiana
          payments for inpatient mental health services have been reduced to about $10 million per
          year.

          Prior authorization of and changes to Louisiana’s non-emergency transportation benefit
          has resulted in annual payment levels falling from $60 million per year to $8 million yearly.
          When Texas instituted prior authorization for transportation services, they saw a
          tremendous drop in the number of non-emergency medical transportation claims and
          payments. Annual payments, for transporting dialysis and cancer patients to and from
          therapy, declined from $4 million to $2 million.

          All of the States acknowledge that prior authorization has an unmeasurable deterrent
          effect. What States can measure is the number of prior authorization requests that are
          denied. While this number is small (on average, less than 5 percent), the savings from
          services denied are significant. In 1998, Pennsylvania Medicaid received more than
          174,000 prior authorization requests. About 5,200 or 3 percent of the 174,000 prior
          authorization requests were denied. These denials saved the Pennsylvania Medicaid
          program more than $25 million in 1998. Pennsylvania has seen no increase or decrease in
          their Medicaid program expenditures over the last 3 years. The State attributes this to
          their prior authorization and pre-certification policies.

          Oregon questions whether prior authorization is an effective tool or just “rubber
          stamping.” Providers are usually given Medicaid guidelines and other information that
          describes the specific criteria that must be met to obtain prior authorization. This
          information may help ensure approval of medical services. While this may be true, other
          States report that they address this vulnerability during their post payment reviews. If the

Proactive Safeguards                               13                                     OEI-05-99-00070
          patient medical records do not support the level of service authorized by the State, the
          provider will be asked to refund any overpayment.

          Oregon has reduced the number of services requiring prior authorization. The Oregon
          Medicaid program found that prior authorization of some services was not cost effective
          and merely made providers jump through hoops to get authorization. Oregon has
          removed some medical services, some supplies and small payment items from prior
          authorization. Oregon found that it was not cost effective to prior authorize small
          payment items. While Oregon has cut the number of services requiring prior authorization
          they have also developed stricter criteria for approving services and supplies still requiring
          prior authorization.


Second Opinion

          Scientific evidence exists that suggests that some medical procedures and drugs are over
          used by the medical community. Despite this, most State Medicaid programs do not
          require patients to have a second opinion before undergoing over used and potentially
          medically unnecessary medical procedures.

          Pennsylvania recently terminated their second opinion program because they felt it had
          outlived its usefulness as more and more patients were enrolled in managed care.
          Pennsylvania believes that it is up to managed care organizations to decide whether or not
          they want a second opinion program.

          Nearly all of the States in our sample have abandoned mandatory second opinion
          safeguards because they found them ineffective and costly to administer. State second
          opinion programs allowed the patient’s physician to suggest other providers that the
          patient might contact for a second opinion. Patients were also permitted to choose, on
          their own, a physician for a second opinion. Several States mentioned that they still pay
          for a second medical opinion if requested by the patient.

          Illinois, California and some private
          sector insurance plans have experienced
          success with their second opinion                     Partial List of Overused Services
          programs. In Illinois and California,           Bunionectomy              Carotid endarterectomy
          patients about to receive certain dental        Cataract surgery,         Coronary artery bypass
          services are re-examined by dentists              except congenital       Coronary angioplasty
          affiliated with the State’s dental              Hemorrhoidectomy          Hip replacement
          contractor. Both claim that their dental        Hysterectomy              Knee surgery
          second opinion program has saved                Mastectomy                Myringotomy with tubes
                                                          Prostatectomy             Spinal and vertebral
          money and prevented patients from                                         surgery
          undergoing unnecessary procedures.              Submucosa resection       Tonsillectomy with or
          These States believe that the                   Varicose vein stripping     without adenoidectomy
          effectiveness of their second


Proactive Safeguards                                 14                                         OEI-05-99-00070
          opinion program is due to their contracts with independent, unbiased physicians who have
          been hired to provide the second opinion.


Certificates of Medical Necessity

          All of the States we visited require that physicians certify the medical need for specific
          services, supplies and equipment. Certificates of medical necessity (CMNs) are
          attestations by physicians stating that they have ordered the services or supplies and that
          the services and supplies ordered are medically necessary for the care and treatment of the
          patient. The CMN is submitted to Medicaid along with the claim for reimbursement.
          Processing of claims for services and supplies requiring CMNs is usually interrupted until
          the CMNs and claims are manually reviewed. Additional information is obtained from
          providers whose CMNs are incomplete or contain discrepancies that prevent further
          processing.

Prime Vendor Contracts

          Florida, Maryland, Oregon and Texas use prime vendors to provide specific services to
          patients. Illinois is also considering using prime vendor contracts. Prime Vendor
          contracts permit a designated private business to function as the primary source for
          specific services or products produced or provided by other suppliers. The prime vendor
          is responsible for delivery of specific products and services to Medicaid patients.

          New York has passed legislation requiring the State Medicaid program to seek
          competitive bids for various durable medical equipment (DME) services. New York has
          issued Requests for Proposals (RFPs) for diapers and is developing another for diabetic
          supplies and high-compression stockings.

          Maryland uses prime vendors to provider non-emergency transportation services (NEMT).
           Local welfare offices put out requests for proposals (RFPs) and obtain bids. One, or
          more bidders, are then awarded contracts to provide all NEMT services within a particular
          geographic area. All authorized NEMT services are provided by the entity holding the
          contract.

          Oregon uses brokers to manage Medicaid patient transportation needs in the Tri-county
          area that includes Portland. The State Medicaid program pays brokers a fixed rate. The
          broker arranges the transportation services a patient needs and pays the provider that
          actually transported the patient. The difference between the State Medicaid payment and
          the broker’s expenses is the broker’s profit or loss.

          In Texas, problems identified in the State Controller’s study of Medicaid payment errors
          lead to that States limiting the number of NEMT providers. Only services authorized and
          provided by contracted providers or service companies are payable under the Texas
          Medicaid program. Illinois is considering a similar plan.

Proactive Safeguards                              15                                     OEI-05-99-00070
                       OPPORTUNITIES  FOR
                          IMPROVEMENT

          Each of the States we visited has taken a different approach to keep unqualified and
          unscrupulous persons from gaining access to their Medicaid systems. Every State should
          have aggressive proactive safeguards. Based on our prior studies and information
          gathered during this study, we would encourage States to consider the following
          opportunities for improvement:

          Target high risk providers for extensive application review and verification.

          Today’s provider enrollment applications solicit more information than a decade ago.
          Verifying information provided on them can be improved by prioritizing applicants based
          on risk. Applicants considered high risk would undergo more extensive application
          development to verify information.

          Some States have reduced their vulnerability to fraud and abuse by improving the way that
          they verify information provided by applicants. As some States have discovered, reliance
          on application information may be a vulnerability in their provider enrollment process.
          Application information submitted by some providers has been found to be false.

          States could improve their third party verification by independently locating and
          contacting an applicant’s manufacturers, suppliers, supervising physician and other
          references. Our experience has shown that relying solely on applicant supplied
          information (i.e., names, telephone numbers, etc.) is a vulnerability.2 Independently
          verifying reference names, addresses and telephone numbers would help ensure that the
          references provided by an applicant are, in themselves, legitimate businesses or persons.

          Expand the use of local field offices to conduct onsite visits to verify the legitimacy of
          problematic providers.

          Onsite visits appear helpful in establishing the legitimacy of some provider number
          applicants. Information from States that make onsite visits demonstrates that onsite visits
          are an effective proactive safeguard. Onsite visits appear to deter unscrupulous persons
          from obtaining a provider number.

          Conduct more frequent and better education of providers concerning their obligation
          to protect their provider number(s) from unauthorized use and the need to notify




          2
                  Additional information about provider enrollment and application vulnerabilities can be found in
          Independent Physiological Laboratories: Vulnerabilities Confronting Medicare (OEI-05-97-00240) and
          Independent Physiological Laboratories: Carrier Perspectives (OEI-05-97-00241).

Proactive Safeguards                                    16                                         OEI-05-99-00070
          Medicaid when their employment relationships with clinics and other providers
          terminates.

          Evidence suggest that many physicians do not adequately protect their provider numbers.
          Some States acknowledge that unscrupulous persons have circumvented their provider
          enrollment safeguards by:

                       <       stealing a legitimate provider’s billing number,
                       <       purchasing the billing number of a legitimate provider, and,
                       <       establishing themselves as a billing company.

          According to Florida and Texas, some physicians are totally unaware that billing number
          information they have shared with former and potential employers has been used to
          defraud Medicaid. Other physicians knowingly sell their provider numbers to non
          physician providers. These physicians, many of whom are retired, accept payments for the
          use of their credentials. In an effort to stop misuse of physician provider numbers, the
          State of Florida visits all physicians who meet certain criteria that suggest the physician
          may be no longer be in active medical practice. Better provider number termination
          policies and periodic contacts with physicians to verify that provider information is current
          would improve safeguards.3

          Strengthen Federal and State laws to hold physicians and other Medicaid providers
          financially and criminally liable for reckless conduct for participating in any deception
          that allows others to use their credentials and business to defraud or cause financial
          harm to Medicaid program.

          Medicaid funds obtained through fraud and deception are often paid to a third party. Our
          past studies, and this study, have shown that third parties obtain the assistance of
          physicians and other providers to facilitate the perpetration of fraud against government
          programs.4 We believe that government programs need to address this vulnerability in
          their system safeguards stemming from physicians who permit others to use their identity
          to circumvent program safeguards or who permit the use of their professional licenses and
          places of business as a front to deceive Medicaid. Physicians found to be in reckless
          disregard of such a law should face criminal, civil and administrative actions.

          Identify and register all clearinghouses and third-party billers and improve safeguards
          to ensure that electronic claims are accepted only from authorized sites and terminals.

          Unscrupulous persons can circumvent enrollment safeguards by operating a billing service
          and offering trial periods and other incentives to obtain a physician’s billing

          3
                  Additional information about provider enrollment and application vulnerabilities can be found in
          Independent Physiological Laboratories: Vulnerabilities Confronting Medicare (OEI-05-97-00240),
          Independent Physiological Laboratories: Carrier Perspectives (OEI-05-97-00241) and Medical Billing
          Software and Processes Used to Prepare Claims (OEI-05-99-00100).
          4
                       Ibid.

Proactive Safeguards                                    17                                         OEI-05-99-00070
          number. Once a legitimate provider number is known, a billing agency can misuse it.
          Today’s Medicaid systems do not ensure that claims originating from billing agencies have
          been properly authorized by the physician under whose name claims are submitted. Most
          Medicaid programs cannot identify billing companies that submit claims nor can they
          determine which physicians use which billing companies.5

          Centralize responsibility for, and improve, employee fraud and abuse awareness
          training.

          With some exceptions, it appears that Medicaid staff (and subcontracted staff) training
          about fraud and abuse may be too fragmented to be effective. Staff training about fraud
          and abuse is often left to the different State components (pharmacy, long-term care,
          dental, etc.) and not the responsibility of any single centralized agency.6

          All of the States we visited have an internal unit to conduct reviews and research
          allegations of wrong doing. These units provide an opportunity for improving staff
          awareness about fraud and abuse. States should consider using these units to improve
          employee awareness of their responsibility to help identify and combat fraud and abuse.
          Moreover, improving the visibility of these units can provide States with an opportunity to
          streamline and clarify fraud and abuse reporting processes and help reduce the likelihood
          that allegations of fraud and abuse would be inappropriately handled.

          Patient advocates, case managers, second medical/dental opinions and certificates of
          medical necessity also provide additional opportunities for improving Medicaid
          safeguards. States with patient advocates help patients make informed medical decisions,
          provide treatment and care alternatives and reduce the number of medically unnecessary
          procedures. States that subcontract with specialists to provide second opinions appear to
          have been successful in curbing abuse of certain procedures. An opportunity exists to
          improve State second opinion programs. Second opinions from independent parties help
          control questionable medical procedures. They can also be used as a deterrent to prevent
          overutilization of services requiring a certificate of medical necessity. Random second
          opinions may provide an opportunity for improving safeguards to protect Medicaid
          programs against forged and inaccurate certificates of medical necessity.


AGENCY COMMENTS

We received comments on this report from HCFA. The HCFA believes that the opportunities for
improvement described in this report provide valuable information that will be shared with the
State Medicaid programs. The full text of HCFA’s comments can be found in Appendix A.


          5
                  Additional information about billing companies and system vulnerabilities can be found in
          Medical Billing Software and Processes Used to Prepare Claims. OEI-05-99-00100.
          6
                   Additional information about fragmented responsibilities for the handling fraud and abuse issues
          can be found in Carrier Fraud Units. OEI-05-94-00470.

Proactive Safeguards                                     18                                          OEI-05-99-00070
                          APPENDIX            A




                       HCFA Comments on this Report 





Proactive Safeguards                19                  OEI-05-99-00070
Proactive Safeguards   20   OEI-05-99-00070
Proactive Safeguards   21   OEI-05-99-00070
